                             Fiscal Year 2004
               Statutory Review of Disclosure of Collection
                  Activity With Respect to Joint Returns

                                    March 2004

                       Reference Number: 2004-40-058




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                       DEPARTMENT OF THE TREASURY
                                            WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                              March 15, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                      ENFORCEMENT


       FROM:                    Gordon C. Milbourn III
                                Acting Deputy Inspector General for Audit

       SUBJECT:                 Final Audit Report - Fiscal Year 2004 Statutory Review of
                                Disclosure of Collection Activity With Respect to Joint Returns
                                (Audit # 200440001)


       This report presents the results of our review the disclosure of collection activity with
       respect to joint returns. The overall objective of this review was to determine if the
       Internal Revenue Service (IRS) is in compliance with Internal Revenue Code Section
       (I.R.C. §) 6103(e)(8) (2000) related to the disclosure of collection activities to joint filers.
       In summary, we could not determine if the IRS fully complied with I.R.C. § 6103(e)(8)
       requirements when responding to all written information requests from joint filers. This
       is the sixth year in which we have reported our inability to give an opinion on the IRS’
       compliance with the provisions of I.R.C. § 6103(e)(8).
       The Treasury Inspector General for Tax Administration is required under
       I.R.C. § 7803(d)(1)(B) (2000) to annually evaluate the IRS’ compliance with the joint filer
       request provisions of the law. IRS management information systems do not separately
       record or monitor joint filer requests, and the Congress has not explicitly required the
       IRS to do so. Furthermore, we do not recommend the creation of a separate tracking
       system. Accordingly, we are making no recommendations in this report.
       Management’s Response: IRS management concurred with our determination to not
       recommend that the IRS create a separate management system to track joint filer
       requests. In addition, they have put forth a proposal to eliminate the legal requirement
       to conduct repeated reviews of this issue since doing so places a burden on both our
       staff and the IRS. Management’s complete response to the draft report is included as
       Appendix IV.
                                          2


Copies of this report are also being sent to the IRS managers affected by the report
results. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                           Fiscal Year 2004 Statutory Review of Disclosure
                         of Collection Activity With Respect to Joint Returns




                                              Table of Contents


Background ................................................................................................. Page 1
Compliance With Statutory Requirements for the Disclosure
of Collection Activity With Respect to Joint Returns Cannot
Be Determined............................................................................................. Page 2
Appendix I – Detailed Objective, Scope, and Methodology ......................... Page 4
Appendix II – Major Contributors to This Report.......................................... Page 5
Appendix III – Report Distribution List ......................................................... Page 6
Appendix IV – Management’s Response to the Draft Report ...................... Page 7
               Fiscal Year 2004 Statutory Review of Disclosure
             of Collection Activity With Respect to Joint Returns

                            The Taxpayer Bill of Rights 2 (TBOR2)1 added Internal
Background
                            Revenue Code Section (I.R.C. §) 6103(e)(8) (2000), which
                            gives joint filer taxpayers who are no longer married or no
                            longer reside in the same household the right to receive
                            information regarding the Internal Revenue Service’s (IRS)
                            efforts to collect delinquent taxes on their joint return
                            liabilities. The procedures in I.R.C. § 6103(e)(8) require
                            that the IRS provide, in writing, collection activity
                            information to joint filers if they send in a written request.
                            After passage of the TBOR2, the IRS Disclosure Office
                            issued procedures which stated that if I.R.C. § 6103(e)(8) is
                            not specifically cited in the request, the IRS can provide
                            either an oral or written response, based upon
                            I.R.C. § 6103(e)(7) (2000).
                            The IRS Restructuring and Reform Act of 1998 (RRA 98)2
                            added I.R.C. § 7803(d)(1)(B) (2000), which requires the
                            Treasury Inspector General for Tax Administration to
                            review and certify annually whether the IRS is complying
                            with the requirements of I.R.C. § 6103(e)(8).
                            The RRA 98 required both the Department of the Treasury
                            and the Joint Committee on Taxation (JCT) to complete
                            separate studies of the scope and use of provisions regarding
                            taxpayer confidentiality. The JCT issued its study report in
                            January 2000 and recommended I.R.C. § 6103(e)(8) be
                            amended to allow for both oral and written information
                            requests from joint filers. The Department of the Treasury
                            issued its study report in October 2000 with a similar
                            recommendation to eliminate the requirement that joint filer
                            information requests be in writing. The Department of the
                            Treasury’s report also suggested that our reporting
                            requirement regarding joint filer requests be phased out.




                            1
                              Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in
                            scattered sections of 26 U.S.C.).
                            2
                              Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                            sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                            23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                            Page 1
                      Fiscal Year 2004 Statutory Review of Disclosure
                    of Collection Activity With Respect to Joint Returns

                                   In response to a recommendation in our Fiscal Year 1999
                                   audit report,3 the IRS agreed to perform separate analyses by
                                   January 2001 in the former National Headquarters
                                   Collection and Customer Service functions to determine the
                                   volume of written joint filer requests received. IRS
                                   management stated they would use the outcome of these
                                   analyses to determine if a centralized management control
                                   process to track joint filer requests was warranted.
                                   Due to the low volume of requests identified during the
                                   Collection study, the former National Headquarters
                                   Customer Service function did not perform its analysis. In
                                   May 2001, management in the Small Business/
                                   Self-Employed (SB/SE) and Wage and Investment (W&I)
                                   Divisions4 decided not to develop a new management
                                   control process to track joint filer information requests.
                                   This review was performed at the IRS National
                                   Headquarters in Washington, D.C., in the SB/SE and W&I
                                   Divisions, and the Office of the National Taxpayer
                                   Advocate during the period October 2003 through
                                   January 2004. This audit was performed in accordance with
                                   Government Auditing Standards. Detailed information on
                                   our audit objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   We could not determine if the IRS fully complied with
Compliance With Statutory
                                   I.R.C. § 6103(e)(8) requirements when responding to all
Requirements for the Disclosure
                                   written requests from joint filers because of our inability to
of Collection Activity With
                                   identify joint filer requests received nationwide. This
Respect to Joint Returns
                                   condition occurred because the IRS’ management
Cannot Be Determined
                                   information systems do not separately record or monitor
                                   joint filer requests. During this review, management from
                                   the SB/SE and W&I Divisions commented that the IRS’
                                   position has not changed from last year and the IRS does
                                   not plan to implement a system to identify or track joint filer

                                   3
                                     The Internal Revenue Service’s Procedures for Responding to Written
                                   Requests for Collection Activity From Joint Return Filers Vary From
                                   Statutory Requirements (Reference Number 1999-10-077, dated
                                   September 1999).
                                   4
                                     The SB/SE and W&I Divisions were created by the reorganization of
                                   the IRS. Components of the former Collection and Customer Service
                                   Divisions were made part of these Divisions.
                                                                                                 Page 2
  Fiscal Year 2004 Statutory Review of Disclosure
of Collection Activity With Respect to Joint Returns

               requests for collection activity. In addition, there is no
               statutory or regulatory requirement for the IRS to develop a
               separate system that records or monitors these requests.
               We do not recommend the creation of a separate tracking
               system and are making no recommendations in this report.
               This is the sixth year in which we have reported our
               inability to give an opinion on the IRS’ compliance with the
               provisions of I.R.C. § 6103(e)(8).




                                                                     Page 3
                       Fiscal Year 2004 Statutory Review of Disclosure
                     of Collection Activity With Respect to Joint Returns

                                                                                         Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the Internal Revenue Service (IRS) is in
compliance with Internal Revenue Code Section (I.R.C. §) 6103(e)(8) (2000) related to the
disclosure of collection activities to joint filers. To accomplish our objective, we:
I.     Obtained confirmation from the Small Business/Self-Employed and Wage and
       Investment Divisions that the IRS neither has, nor plans to implement, a system or
       process to identify or track joint filer requests for collection information relating to the
       requirements of I.R.C. § 6103(e)(8).
II.    Interviewed personnel in the offices of the National Taxpayer Advocate, the IRS
       Commissioner’s Executive Control Management System, and the Treasury Inspector
       General for Tax Administration to determine if there is a system or process that tracks
       taxpayer complaints relating to the requirements of I.R.C. § 6103(e)(8).




                                                                                              Page 4
                      Fiscal Year 2004 Statutory Review of Disclosure
                    of Collection Activity With Respect to Joint Returns

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Kristi Larson, Senior Auditor
Sylvia Sloan-Copeland, Auditor




                                                                                         Page 5
                     Fiscal Year 2004 Statutory Review of Disclosure
                   of Collection Activity With Respect to Joint Returns

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
   Director, Communications and Liaison, National Taxpayer Advocate TA:CCL
   GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                 Page 6
  Fiscal Year 2004 Statutory Review of Disclosure
of Collection Activity With Respect to Joint Returns

                                                       Appendix IV


 Management’s Response to the Draft Report




                                                            Page 7
